Case: 20-1158

Document: 55

1a

Page: 1

Filed: 09/30/2020

NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

IN RE: HARITHA SAMARANAYAKE, JERE
PIKKARAINEN, ANN-MARIE MAATTA, SEPPO
YLA-HERTTUALA,
Appellants
______________________
2020-1158
______________________
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. 13/877,246.
______________________
ON PETITION FOR PANEL REHEARING
______________________
Before DYK, O’MALLEY, and REYNA, Circuit Judges.
PER CURIAM.
ORDER
Appellants Ann-Marie Maatta, Jere Pikkarainen,
Haritha Samaranayake and Seppo Yla-Herttuala filed a
petition for panel rehearing.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.

Case: 20-1158

Document: 55

2a

Page: 2

Filed: 09/30/2020

The mandate of the court will issue on October 26,
2020.
FOR THE COURT
September 30, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Case: 20-1158

Document: 47

11a

Page: 1

Filed: 09/02/2020

NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

IN RE: HARITHA SAMARANAYAKE, JERE
PIKKARAINEN, ANN-MARIE MAATTA, SEPPO
YLA-HERTTUALA,
Appellants
______________________
2020-1158
______________________
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. 13/877,246.
______________________
ON MOTION
______________________
Before DYK, O’MALLEY, and REYNA, Circuit Judges.
PER CURIAM.
ORDER
Appellants move for the court to strike pages 62-151
(SAppx6-44 and SAppx56-106) from Director Iancu’s supplemental appendix in ECF No. 18, or, in the alternative,
for leave to introduce new evidence to rebut the information presented on the pages in question. The Director
responds in opposition, and Appellants reply.
Upon consideration thereof,
IT IS ORDERED THAT:

Case: 20-1158

Document: 47

12a

Page: 2

Filed: 09/02/2020

The motion is denied.
FOR THE COURT
September 2, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Case: 20-1158

Document: 48

13a

Page: 1

Filed: 09/02/2020

NOTE: This disposition is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

IN RE: HARITHA SAMARANAYAKE, JERE
PIKKARAINEN, ANN-MARIE MAATTA, SEPPO
YLA-HERTTUALA,
Appellants
______________________
2020-1158
______________________
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. 13/877,246.
______________________
JUDGMENT
______________________
J. MARK POHL, Pharmaceutical Patent Attorneys, LLC,
Morristown, NJ, argued for appellants.
AMY J. NELSON, Office of the Solicitor, United States
Patent and Trademark Office, Alexandria, VA, argued for
appellee Andrei Iancu. Also represented by MARY L.
KELLY, THOMAS W. KRAUSE.
______________________
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:

Case: 20-1158

Document: 48

14a

Page: 2

Filed: 09/02/2020

PER CURIAM (DYK, O’MALLEY, and REYNA, Circuit
Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT

September 2, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

21a

UNITED STATES PATENT AND TRADEMARK OFFICE

BEFORE THE PATENT TRIAL AND APPEAL BOARD

Ex parte HARITHA SAMARANAYAKE,
JERE PIKKARAINEN, ANN-MARIE MAATTA,
SEPPO YLA-HERTTUALA 1

Appeal 2018-001996
Application 13/877,246
Technology Center 1600

Before RICHARD M. LEBOVITZ, JEFFREY N. FREDMAN, and
DAVID COTTA, Administrative Patent Judges.
LEBOVITZ, Administrative Patent Judge.
REQUEST FOR REHEARING
This is a request for rehearing under 37 C.F.R. 4l.79 ("Req. Reh'g")
of the Decision on Appeal entered May 30,2019 ("Dec. App.").
Appellants argue that three erroneous factual findings were made in
the Decision on Appeal. Req. Reh'g l. We have considered Appellants'
arguments, but we are not persuaded to change the outcome of the Decision.
Each of three arguments made by Appellants are discussed below.

The Appeal Brief ("Appeal Br." entered July 27, 2016) lists Trizell Limited
as the Real Party in Interest. Appeal Br. 1.
1

22a
Appeal 2018-001996
Application 13/877,246

Is Hegi (2008) of record?
Appellants contend that Hegi (J. Clin. Oneal. 26: 4189-4199, 2008)
("Hegi (2008)") is not of record. Req. Reh' g 1.
Hegi (2008) was cited in the Answer, but not in the Final Office
Action, as part of a new ground of rejection. 2 Ans. 14, 19. The Examiner
stated that Hegi (2008) was cited in an Information Disclosure statement
("IDS"). Ans. 14, 19. The Decision on Appeal agreed that Hegi was of
record because it was cited in an IDS. Dec. App. 18. However, as pointed
out by Appellants, the "Hegi" publication listed in the IDS is not the same
Hegi (2008) publication cited in the Answer. Req. Reh'g 1. Thus, the
statement that Hegi (2008) was listed on the IDS is an error.
Nonetheless, we do not agree with Appellants that Hegi (2008) is not
of record. Hegi (2008) was made of record in the Examiner's Answer
because the Examiner provided a full citation to it. Even if the publication
was not listed by the Examiner on a disclosure form, this deficiency does not
mean it is not "of record." The Manual of Patent Examining Procedures
("MPEP") (Ninth Edition, Last Revised January 2018) explains the purpose
of listing a publication on a disclosure form:
MPEP 707.05(a) Copies of Cited References
To assist in providing copies of, or access to, references, the
examiner should:
(A) Type the citation of the references on form PTO-892,
"Notice of References Cited" using OACS;

Appellants had the option to reopen prosecution in response to the new
ground, but did not do so and addressed the Hegi (2008) reference in the
Reply Brief (see Reply Br. 12).
2

2

23a
Appeal 2018-001996
Application 13/877,246
(B) Include in the eRed Folder all of the references cited by the
examiner which are to be furnished to the applicant.
The MPEP does not indicate that the failure to list a publication on
form PTO-892 establishes that a publication is "not of record" as stated by
Appellants. Rather, the purpose is to assist in providing a copy or access to
the publication. The Answer provided Appellants with the complete citation
to Hegi (2008) in the Answer and thus Hegi (2008) is recorded in the
examination record. Appellants did not provide legal basis for the assertion
Hegi (2008) is not of record, that they lacked access to the reference, or that
they were prejudiced in any way.

Antibody detection in the '855 patent
In the Decision on Appeal, Appellants' statement that "certain cancer
therapies should not be given to immunocompetent patients" was addressed.
Dec. App. 9. In addressing this argument, the declaration by Mr. Seppo YlaHerttuala describing results reported in U.S. Pat. 6,579,855 ("the '855
patent") was discussed. Mr. Yla-Herttuala is a co-inventor of the '855
patent and also a co-inventor of the application involved in this appeal.
It was stated in the Decision on Appeal:

The declaration [describing the results in U.S. Pat. 6,579,855]
does not say patients were "only" treated "if' antivirus antibody
was below the detectable level as asserted by Appellants.
Instead, Mr. Yla-Herrtuala [Yla-Herttuala] states that antibody
was not measured before gene transfer because it would have
been below detection levels. The apparent reason for this is
because the patients had not yet been exposed to the viral vector
and had not yet developed an immune reaction it.
Dec. App. 10.

3

24a
Appeal 2018-001996
Application 13/877,246
Appellants state the Decision erred in finding that antibody was not
measured in the '855 patent before gene transfer. Req. Reh'g 3. We agree
this is an error, but the error does not change our conclusion that patients
having a normal immune response were treated in the cited prior art
publication. Dec. App. 9. The reasoning set forth in the Decision on Appeal
is unchanged.
We clarify that the '855 patent states that antibodies were measured
before and after gene therapy. '855 patent, col. 4: 9--10, 53-54. However,
Mr. Yla-Herttuala makes the following statement in his declaration:
The patent does not disclose the measure of anti-virus
antibodies measured before gene transfer.
This is because as measured before gene transfer, anti-virus
antibody was below detectable limits for all patients.
Yla-Herttuala,-r 3.
Thus, antibody was measured, but not reported in the '855 patent
before gene transfer because it was "below detectable limits."

Does Ulasov teach a transgene?
Claim 1 recites a step of "administering to said human patient a viral
gene therapy vector having a transgene." As explained in the Decision on
Appeal, the Examiner found that Ulasov describes introducing the E 1A gene
into a viral vector and driving its expression with a survivin promoter, which
the Examiner determined met the claimed requirement of a "trans gene. " As
explained in the Decision:
Ulasov discloses "CRAd-Survivin-pk7 (CRAd-S-pk7), a novel
oncolytic adenoviral vector that utilises the survivin promoter
to drive EIA expression and binds to heparan sulphate
proteoglycans expressed on malignant glioma." Ulasov 1155.

4

25a
Appeal 2018-001996
Application 13/877,246
The EIA gene, normally present in the virus, was not the copy
that was used in Ulasov's experiment. Instead, Ulasov teaches
that "the survivin-controlled E 1 expression cassette was placed
in the native E 1 region of the Ad genome to avoid nonspecific
viral replication." Id. For this reason, we do not agree with
Appellants that reading the term "transgene" on the E 1
expression cassette would "read" the limitation out of the claim,
allegedly because all the viral DNA would be considered a
transgene. Reply Br. 3. Rather, the Examiner correctly found
that the E 1A expression cassette is a "transgene" because it was
introduced into the adenovirus and is not native to it. The EIA
expression cassette is an E 1 gene operably connected to the
non-native survivin promoter.
Dec. App. 7-8.
Appellants contend that the Examiner erred in finding that Ulasov
describes a "transgene," and that such finding was made only after
prosecution had been closed ("She raised it only after she had closed the
record to the introduction of rebuttal evidence."). Req. Reh'g 3--4.
Appellants also state that the Board invited Appellants to provide rebuttal
evidence, and "[i]n response to the Board's kind invitation to do so,
however, Appellant here provides the rebuttal evidence you request: a
Declaration (July 2019) from Professor Yla-Herttuala explaining how the
voluminous evidence of record contradicts the Examiner's incorrect
interpretation of the term 'transgene. '" Req. Reh'g 4.
While the Examiner did not raise the transgene issue with respect to
Ulasov until the Answer, Appellants had the opportunity to reopen
prosecution (Ans. 33) and introduce new evidence at that time. Appellants
chose not to reopen prosecution, but instead filed a Reply Brief. The
Declaration was not provided at this time. The Decision on Appeal did not
subsequently "invite" Appellants to provide rebuttal evidence. New

5

26a
Appeal 2018-001996
Application 13/877,246
evidence is not permitted in a Request for Rehearing "except as permitted by
paragraphs (a)(2) through (a)(4) of' 37 C.F.R § 41.52(a). Appellants did not
establish that such conditions were met, and thus the new Declaration is not
permitted and has not been considered.
The term "trans gene" does not appear in the Specification as
originally filed. In the Appeal Brief, Appellants identified page 1, line 6 of
the Specification as providing support for the term. Appeal Br. 1. The
complete sentence spanning line 6 of the Specification is reproduced below:
Herpes simplex virus type 1, thymidine kinase (HSV-tk) gene
therapy is based on the prodrug activating enzyme that converts
a non-toxic compounds such as ganciclovir, (GCV) into a toxic
metabolite.
Spec. 1:6-8. This disclosure does not elucidate the meaning of "transgene."
In the Reply Brief, Appellants defined a "trans gene" as "foreign
genetic material." Reply Br. 2. Appellants further state that the transgene
must code for a polypeptide. Req. Reh'g 4. Appellants also argue that the
El gene is native to adenovirus and therefore not a foreign gene. Id. at 3.
The E 1A gene utilized in Ulasov codes for a protein and is not the
same copy that is present in the vector, but instead was introduced into the
vector. Ulasov 1155. The EIA gene is therefore "foreign" to the adenoviral
genome present in the vector because it is not the "native" copy present in
the adenoviral genome. Accordingly, we decline to change our
determination that Ulasov describes a trans gene consistent with the broadest
reasonable interpretation of that term as it would have been understood by
an ordinary artisan. "[DJuring patent prosecution when claims can be
amended, ambiguities should be recognized, scope and breadth of language

6

27a
Appeal 2018-001996
Application 13/877,246
explored, and clarification imposed." In re Zietz, 893 F.2d 319,321 (Fed.
Cir. 1989).

REHEARING DENIED

7

31a

UNITED STATES PATENT AND TRADEMARK OFFICE

BEFORE THE PATENT TRIAL AND APPEAL BOARD

Ex parte HARITHA SAMARANAYAKE,
JERE PIKKARAINEN, ANN-MARIE MAATTA,
SEPPO YLA-HERTTUALA 1

Appeal 2018-001996
Application 13/877,246
Technology Center 1600

Before RICHARD M. LEBOVITZ, JEFFREY N. FREDMAN, and DAVID
COTTA, and Administrative Patent Judges.
LEBOVITZ, Administrative Patent Judge.
DECISION ON APPEAL
The rej ected claims in this appeal are directed to a viral gene therapy
vector for treating cancer. The Examiner rejected the claims under 35
U.S.C. § 103 as obvious and 35 U.S.C. § 102 as anticipated. Pursuant to 35
U.S.C. § 134, Appellants appeal the Examiner's determination that the
claims are unpatentable. We have jurisdiction for the appeal under 35
U.S.C. § 6(b). The Examiner's decision is affirmed-in-part.

The Appeal Brief ("Appeal Br." entered July 27,2016) lists Trizell Limited
as the Real Party in Interest. Appeal Br. 1.
1

32a
Appeal 2018-001996
Application 13/877,246
STATEMENT OF THE CASE
This appeal is related to Appeal No. 2017-003624 of Application
13/858,393. A decision was entered Nov. 13,2017. The application was
abandoned on May 3,2018.
The Examiner withdrew all of the rejections set forth in the Final
Office Action, and set forth 12 new grounds of rejection in the Examiner's
Answer. The new grounds of rejection are as follows:
1. Claim 41 under pre-AlA 35 U.S.C. § 102(b) as anticipated by

Ulasov et al. (Combination of adenoviral virotherapy and temozolomide

chemotherapy eradicates malignant glioma through autophagic and
apoptotic cell death in vivo, Br. J. Cancer, 100(7): 1154-1164,2009, (IDS))
("Ulasov"). Ans. 2.
2. Claims 1,9, 14, 15,27,28,31, and 33 under pre-AlA 35 U.S.C. §
103(a) as obvious in view ofUlasov and Balmaceda et al. (Multi-

Institutional Phase II Study of Temozolomide Administered Twice Daily in
the Treatment of Recurrent High-Grade Gliomas, Am. Cancer Soc 'y,
112(5): 1139--46, 2008 (IDS)) ("Balmaceda"). Ans. 4.
3. Claims 1-8,41, and 42 under pre-AlA 35 U.S.C. § 103(a) as
obvious in view ofUlasov, Balmaceda, King et al. (High-Capacity

Adenovirus Vector-Mediated Anti-Glioma Gene Therapy in the Presence of
Systemic Antiadenovirus Immunity, J. of Virology, 82(9): 4680--4684, 2008,
(IDS)) ("King"), and Rainov et al. (Temozolomide enhances herpes simplex

virus thymidine kinase/ganciclovir therapy of malignant glioma, Cancer
Gene Therapy, Vol. 8(9), 662---668,2001 (IDS)) ("Rainov"). Ans. 6.
4. Claims 1 and 10-12 under pre-AlA 35 U.S.C. § 103(a) as obvious
in view ofUlasov, Balmaceda, and Chiocca et al. (A Phase I Open-Label,

2

33a
Appeal 2018-001996
Application 13/877,246

Dose-Escalation Trial of Injection with an EIB-Atteniated Adenovirus,
ONYX-015, into the Peritumoral Region of Recurrent Malignant Gliomas, in
the Adjuvant Setting, Mol. Ther., 10(5): 958- 966, 2004) ("Chiocca (2004)").
Ans.9.
5. Claims 1 and 13 under pre-AlA 35 U.S.C. § 103(a) as obvious in
view ofUlasov, Balmaceda, and Stupp et al. (Radiotherapy plus

Concomitant and Adjuvant Tem ozo 10m ide for Glioblastoma, N. Engl. J.
Med., 352: 987-996,2005 (IDS)) ("Stupp"). Ans. 10--11.
6. Claim 1 and 16 under pre-AlA 35 U.S.C. § 103(a) as obvious in
view ofUlasov, Balmaceda, and Brandes et al. (First-Line Chemotherapy

With Cisplatin Plus Fractionated Temozolomide in Recurrent Gliblastoma
Multiforme: A Phase II Study of the Gruppo Italiano Cooperativo di NeuroOncologia, J. Clin. Oncol. 22(9):1598-604,2004) ("Brandes"). Ans. 12.
7. Claims 1 and 17 under pre-AlA 35 U.S.C. § 103(a) as obvious in
view ofUlasov, Balmaceda, and Yu (WO 2008/008767 A2, published Jan.
17,2008). Ans. 13.
8. Claims 1 and 18 under pre-AlA 35 U.S.C. § 103(a) as obvious in
view ofUlasov, Balmaceda, and Hegi et al. (Correlation of 0 6 _

Methylguanine Methyltransferase (MGMT) Promoter Methylation With
Clinical Outcomes in Glioblastoma and Clinical Strategies to Modulate
MGMT Activity, J. Clin. Oncol. 26:4189-4199,2008 (IDS)) ("Hegi (2008)").
Ans.14.
9. Claims 19 and 20 under pre-AlA 35 U.S.C. § 103(a) as obvious in
view of "Preliminary Cerepro (R) Phase III Results Meet Primary EndpointOperable Primary Malignant Glioma" (2008)
(http://www.medicalnewstoday.comiarticlesI116938.php);

3

34a
Appeal 2018-001996
Application 13/877,246
http://www.virtualtrials.com/news3 .cfmitem=4320&showtext=y ("Medical
News Today") and Immonen et al. (AdvHSV-tk Gene Therapy with
Intravenous Ganciclovir Improves Survival in Human Malignant Glioma: A
Randomised, Controlled Study, Mol. Ther. 10: 967-972,2004 (IDS))

("Immonen"). Ans. 15-16.
10. Claims 19,20, and 21-26 under pre-AlA 35 U.S.C. § 103(a) as
obvious in view Medical News Today, Immonen, Balmaceda, and Hegi
(2008). Ans. 17.
11. Claims 27,29-32, and 35--40 under pre-AlA 35 U.S.C. § 103(a)
as obvious in view ofUlasov, Balmaceda, Immonen, and Rainov. Ans. 20.
12. Claims 27 and 34 under pre-AlA 35 U.S.C. § 103(a) as obvious in
view ofUlasov, Balmaceda, Immonen, and Stupp. Ans. 23.

REJECTION 1. ANTICIPATION BY ULASOV
The Examiner rejected claim 41 as anticipated by Ulasov. Claim 41 is
reproduced below:
41. A kit comprising a viral vector and temozolomide, said
viral vector and said temozolomide present in an amount
effective to treat brain cancer in a human patient.
The Examiner found that Ulasov describes:
a combination of a conditionally replicative adenoviruses
(CRAds) vector expressing the gene EIA under transcriptional
control of the survivin promoter (CRAd-S-pk7) and
temozolomide (TMZ), a cytotoxic agent, in amounts effective
to treat malignant glioma (p 1154-1161; (p 1156, 2nd column) in
amount effective to treat human gliomas (p 1164, 1st column
under discussion).
Ans.3.

4

35a
Appeal 2018-001996
Application 13/877,246
The "conditionally replicative adenoviruses (CRAds) vector", which
is "CRAd-S-pk7," corresponds to the claimed "viral vector." Ulasov
evaluated the efficacy of CRAd-S-pk7 and temozolomide (TMZ) in vivo in a
mouse to which a human glioma cell line U87MC had been subcutaneously
administered. Ulasov 1159. Ulasov discloses that a "dose of 10 mg kg- 1
body weight was used, which corresponded to a dose of25 mg kg- 1 m-2 in
humans." Ulasov 1155 (1 st col.). Appellants argue that this dosage is not
"in an amount effective to treat brain cancer in a human patient" as recited in
claim 41. As evidence of this, Appellants cite Balmaceda which discloses
dosages of TMZ used to treat patients with high grade glioma. Balmaceda
discloses:
An initial oral dose of 200 mg/m2 of temozolomide was
followed by 9 consecutive doses of 90 mg/m2 every 12 hours.
Treatment cycles were repeated every 28 days. Doses were
escalated to 100 mg/m2 twice daily in the absence of
unacceptable toxicity or were reduced if unacceptable toxicity
occurred.
Balmaceda 1139 (Abstract).
The evidence supports Appellants' argument that the dosages of TMZ
administered in Ulasov are different from those said by Balmaceda to be
effective in human patients. Specifically, the dosage of TMZ in Ulasov is
listed as 25 mg per kg, per meter squared, while Balmaceda's are expressed
on a patient basis of 200, 100, and 90 mg per meter squared per patient. The
Examiner did not explain how the doses in Ulasov used to treat a human
glioma xenograft in mice would be effective to treat brain cancer in a human
patient. The Examiner has the burden of establishing that the dosages used
in Ulasov were the same or in the same range as those disclosed in
Balmaceda and would be effective and absent "unacceptable toxicity"

5

36a
Appeal 2018-001996
Application 13/877,246
(Balmaceda 113 9 (Abstract)) to treat brain cancer in a human patient as
required by the claim. Because this burden was not met, the anticipation
rejection of claim 41 is reversed.
REJECTION 2. OBVIOUSNESS BASED ON ULASOV
AND BALMACEDA
The Examiner rejected claims 1, 9, 14, 15,27,28, 31, and 33 as
obvious based on Ulasov and Balmaceda.
Claims 1, 9, 14, 15, 31, and 33
Claim 1, which is representative of the rejected claims, is reproduced
below:
1. A method of treating cancer in a human patient, said method
compnsmg:
- diagnosing a cancer in a human patient,
- administering to said human patient a viral gene therapy
vector having a transgene, and
- within about 30 days of said administration of said viral
gene therapy vector, administering to said human patient a
cytotoxic agent other than gancylovir [sic, ganciclovir; this
error is repeated throughout the claims].
The Examiner found that Ulasov describes administering a
conditionally replicative adenoviruses (CRAds) vector expressing the gene
EIA under transcriptional control of the survivin promoter (CRAd-S-pk7)
and temozolomide (TMZ), a cytotoxic agent. Ans. 3,4. The Examiner
found that CRAd-S-pk7 is "a viral gene therapy vector having a transgene"
as recited in claim 1, where the EIA gene under control of the survivin is the
claimed transgene.
The Examiner recognized that "Ulasov does not per se teach
administration into a human or an immunocompetent human patient" as
6

37a
Appeal 2018-001996
Application 13/877,246
required by the claims, but found that Balmaceda teaches administering
TMZ to human patients with brain cancer. Ans. 5. The Examiner stated it
would have been obvious to one of ordinary skill in the art to combine the
teaching of Ulasov and Balmaceda to administer adenovirus vector and
TMZ, a "cytotoxic agent" as required by the claims, to a human subject as
disclosed by Balmaceda, to treat malignant glioma, with reasonable
expectation of success. Ans. 6. The Examiner found that the skilled worker
would have been "motivated to do so to receive the expected benefit of
combination therapy in [a] human patient." Id.
Appellants argue that Ulasov does not describe a transgene. Reply Br.
2. Appellants argue that the gene determined by the Examiner to be a
transgene is the viral gene E 1, which is native to adenovirus, and therefore is
not a "'trans' (foreign) gene." Reply Br. 3. Appellants contend that it could
be argued that "viral DNA is by definition foreign to the infected cell, so all
viral DNA is transgene, including Ulasov's E 1," but that "interpretation ...
would render the term 'trans gene ' redundant to the term 'virus' ... [and]
would read out of the claim an entire phrase: 'viral gene therapy vector
having a trans gene , would simply mean 'virus. '" Id.
We are persuaded that the viral E 1 gene used by Ulasov is a
"transgene" as determined by the Examiner.
Ulasov discloses "CRAd-Survivin-pk7 (CRAd-S-pk7), a novel
oncolytic adenoviral vector that utilises the survivin promoter to drive EIA
expression and binds to heparan sulphate proteoglycans expressed on
malignant glioma." Ulasov 1155. The EIA gene, normally present in the
virus, was not the copy that was used in Ulasov's experiment. Instead,
Ulasov teaches that "the survivin-controlled EI expression cassette was

7

38a
Appeal 2018-001996
Application 13/877,246
placed in the native El region of the Ad genome to avoid nonspecific viral
replication." Id. For this reason, we do not agree with Appellants that
reading the term "trans gene" on the E 1 expression cassette would "read" the
limitation out of the claim, allegedly because all the viral DNA would be
considered a transgene. Reply Br. 3. Rather, the Examiner correctly found
that the E 1A expression cassette is a "trans gene" because it was introduced
into the adenovirus and is not native to it. The EIA expression cassette is an
El gene operably connected to the non-native survivin promoter.
Appellants also argue that claim 1 requires a viral gene therapy vector
having a trans gene and that neither Ulasov nor Balmaceda describe such a
vector. Reply Br. 2. Appellants state that "Ulasov teaches adenovirus. In
contrast, a 'vector' is a virus/plasmid etc. which delivers foreign genetic
material (e.g., a transgene) for expression in a host cell." Id.
This argument is not persuasive. First, Appellants have not provided
objective evidence of their definition of a "vector" with, e.g., a definition in
a scientific publication or expert testimony. Second, as explained above,
Ulasov teaches a "trans gene" expression cassette in its adenovirus. Thus,
even under Appellants' definition, Ulasov describes the claimed viral vector
because it delivers a transgene to a host cell.
For the foregoing reasons and those of the Examiner, the obviousness
rejection of claim 1, and of claims 9, 14, 15, 31, and 33, which were not
argued separately, is affirmed. 37 C.F.R. § 41.37(c)(1)(iv).

8

39a
Appeal 2018-001996
Application 13/877,246
Claim 27
Independent claim 27 is similar to claim 1, but requires administering
the viral gene therapy vector and cytotoxic agent to "an immunocompetent
human patient." The term "immunocompetent" does not appear in the
Specification nor is it defined by Appellants. We interpret it to mean a
patient with a normal immune system typically found in a healthy human
that produces a normal immune response.
Appellants contend that Balmaceda fails to teach "immune competent
patients", but do not identify any teaching in Balmaceda that suggests that
the patient population treated in Balmaceda is immunocompromised or
lacking a normal immune response. Reply Br. 4-5. Absent such a
suggestion, we interpret Balmaceda as disclosing the treatment of patients
having normal immune response.
Appellants argue that certain cancer therapies should not be given to
immunocompetent patients, citing a declaration by one of the inventors Sepp
Yla-Herrtuala (dated June 2,2014) which Appellants assert teaches:
"screened human cancer patients, and then treated the patient only if 'antivirus antibody was below detectable limit. ,,, Reply Br. 4.
We find that Appellants' interpretation of what Mr. Yla-Herrtuala
stated in the declaration is not supported by his actual statement. Mr. YlaHerrtuala stated:
2. The patent at col. 4, lines 9-10 says, "Anti-virus antibodies
were measured before and two weeks after the gene transfer."
3. The patent at Table 1, 9th column ("Virus ab") provides the
measure of antivirus antibodies measured two weeks after the
gene transfer. The patent does not disclose the measure of antivirus antibodies measured before gene transfer. This is because

9

40a
Appeal 2018-001996
Application 13/877,246
as measured before gene transfer, anti-virus antibody was
below detectable limit for all patients.
The declaration does not say patients were "only" treated "if'
antivirus antibody was below the detectable level as asserted by Appellants.
Instead, Mr. Yla-Herrtuala states that antibody was not measured before
gene transfer because it would have been below detection levels. The
apparent reason for this is because the patients had not yet been exposed to
the viral vector and had not yet developed an immune reaction it.
Accordingly, we do not agree that the statements in the declaration support
Appellants' argument that Balmaceda does not treat immunocompetent
patients as required by claim 27.
For the foregoing reasons, the obviousness rejection of claim 27 is
affirmed.

Claim 28
Claim 28 depends from claim 27, and further recites: "wherein said
viral gene therapy vector is administered in an amount of about 3 x 10 3 cfu."
The Examiner found that Ulasov discloses "a dose of 3 x 10 9 vp per
mouse injected (one or two injections)" and that it would have been
"obvious to an ordinary skill in the art to convert ... a dose of 3 x 10 9 vp to
cfu and thus, a dose of3 x 10 9 vp overlap[s] with the claimed cfu range."
Ans. 5. The Examiner also found that it would be routine optimization to
discover the optimal dose of virus because it is "design effective variable."
Id.
The Examiner did not meet the burden of establishing that the claimed
dosage would have been prima facie obvious to one of ordinary skill in the
art. The Examiner states that it would be obvious to convert that "vp" units
10

41a
Appeal 2018-001996
Application 13/877,246
to "cfu" and that the converted doses "overlap" with the claimed amounts,
but provided no explanation of how the conversion was made, nor did the
Examiner provide the calculations upon which the assertion was made.
Consequently, the rejection of claim 28 is reversed.

REJECTION 3. OBVIOUSNESS BASED ON ULASOV,
BALMACEDA, KING, & RAINOV
Claims 2,3,8, and 42
Claim 2, which depends from claim 1, further recites that the
trans gene codes for thymidine kinase. Claim 3 depends from claim 2 and
further recites administering ganciclovir ("GCV") to the human patient.
Claim 8 depends from claim 1 and further recites that the administration of
the cytotoxic agent other than ganciclovir lasts for up to 50 days. Claim 42,
which depends from claim 41, further recites that the viral vector comprises
thymidine. 2 Thus, the claims require the vector/GCV combination and a

Claim 2, 3, and 42 further narrow the claim to a specific type of viral
vector that comprises the thymidine kinase gene. The mechanism in which
TK viral vectors kill cells is different from the viral vector described in
Ulasov. The TK vectors use ganciclovir (GCV) to make a toxic compound
that kills tumor cells, while Ulasov uses a conditionally replicative
adenovirus that preferentially replicates in and kills tumor cells. Ulasov
1154. For this reason, we do not consider the teaching in Ulasov regarding
the success of its viral vector in combination with TMZ to be specifically
pertinent to the narrower claims utilizing a different viral vector which kills
cells by a different mechanism.
2

11

42a
Appeal 2018-001996
Application 13/877,246
cytotoxic agent (recited in claim 1). The Examiner identified the teaching of
TMZ in the prior art as the claimed cytotoxic agent.
The Examiner found that King describes gene therapy for treating
glioblastoma multiforme (GBM) comprising administering an adenovirus
carrying the thymidine kinase gene. Ans.6. The Examiner found that King
administered ganciclovir (Ans. 7), which was known at the time of invention
to be converted by the enzyme thymidine kinase to a toxic substance that
kills dividing cells (Ans. 16). The Examiner found it obvious to use King's
vector in Ulasov to treat human patients because King discloses it as a high
capacity vector which "induces tumor regression and long-term survival in
an intracranial glioma model." Ans. 7. The Examiner further found that
Rainov describes administering the adenoviral vector HSV -TK (HSV is
human simplex virus; TK is thymidine kinase), GCV, and TMZ ("cytotoxic
agent"), meeting the corresponding limitations of the claims.
Appellants argue that while Rainov reported in vitro synergy of the
combination of vector/GCV and TMZ when applied to cell lines, Rainov did
not report synergy in the in vivo model. Reply Br. 6-8. For this reason,
Appellants argue "Rainov teaches a reasonable expectation of failure, not
success, in the claimed in vivo method." Reply Br. 8. Appellants further
argue that because TMZ is cytotoxic, and because Rainov describes no
added benefit to adding to TMZ to the vector/GCV treatment, one of
ordinary skill in the art would not have had reason to use the combination of
the vector/HCV and TMZ to treat human patients. Reply Br. 9. In other
words, Appellants argue that there would be no reason to administer a TMZ
and vector/GCV combination to a patient as required by the rejected claims.

12

43a
Appeal 2018-001996
Application 13/877,246
Glaser et al. 3, another publication cited during prosecution, describes
using a HSV-TK vector in combination with TMZ in cell lines and also
found a lack of synergy: "TKlGCV therapy does not kill glioma cells in
synergy with cancer chemotherapy drugs, including lomustine,
temozolomide [TMZ] and topotecan." Glaser 469 (abstract).
Weare not persuaded by this evidence that the Examiner erred in
rejecting the claims as obvious.
Rainov tested TMZ treatment on nude mice which had been
subcutaneously injected with the U87MG (U87) human malignant glioma
cell line and which were expressing HSV-tk (herpes simplex virus
comprising the thymidine kinase (tk) gene) or, alternatively, with cells not
expressing the tk gene as a control. Rainov 663---664. While it does not
appear that Rainov describes synergy in the animal model using nude mice,
Rainov still suggested that the combination merited further investigation and
had clinical implications, such as reducing toxicity and decreasing the
impact of acquired drug resistance. Rainov teaches:
[T]he feasibility of a clinical study combining both HSVtklGCV gene therapy and oral TMZ at doses equal or slightly
higher than the currently recommended may be predicted.
Besides the synergistic cytotoxic effect, another advantage of
combining HSV- tkl GCV gene therapy with TMZ would be the
fact that this combination of drugs may reduce toxicity toward
the host as indicated by the DRI (Table 1) and may decrease the
impact of possible acquired drug resistance of the tumor cells.
Summarizing our data, the demonstration of synergy
between HSV- tkl GCV gene therapy and chemotherapy with
T. Glaser et aI., Death receptor-independent cytochrome c release and
caspase activation mediate thymidine kinase plus ganciclovir-mediated
cytotoxicity in LN-18 and LN-229 human malignant glioma cells, Gene
Therapy, 8:469--476 (2001).
3

13

44a
Appeal 2018-001996
Application 13/877,246
TMZ suggests a possible enhanced therapeutic concept for
future studies in human malignant glioma. Despite many still
unknown variables, the present results were clearly defined in a
glioma cell culture system and confirmed in animal
experiments, and therefore justify further investigation.
Rainov 667.
Thus, the lack of synergy in the animal model did not dissuade
Rainov from suggesting the feasibility of the therapeutic combination of
vector/GCV and TMZ for future studies, particularly given its clinical
advantages ("may reduce toxicity toward the host as indicated by the DRI
(Table 1) and may decrease the impact of possible acquired drug resistance
of the tumor cells").
Appellants also state that they previously argued that "Rainov teaches
away from combining Wick's temozolomide with King's ganciclovir in

vivo." Reply Br. 9. Appellants argue that in response to the argument, the
Examiner withdrew the rejections. Id. at 10. Appellants state that the
Examiner "has already conceded that combining Wick's temozolomide with
King's ganciclovir would eliminate efficacy and risk fatal toxicity." Id.
It is true that the Examiner withdrew the rejections based on Wick,

but the Examiner did not explain the reason. Appellants had argued in the
Appeal Brief:
Temozolomide damage is repaired MGMT, while ganciclovir
damage is repaired by hMLHI. Thus, were one to simply
combine temozolomide and ganciclovir, one would need to
administer a dose of temozolomide large enough to deplete
MGMT (i.e., a full dose) and a dose of ganciclovir large enough
to deplete hMLHI (i.e., a full dose).
The minimally-effective dose of either drug, however, is
large enough to risk fatal hemotoxicity. Thus, Wick explains
why two full doses of two different cytotoxics would be fatal.

14

45a
Appeal 2018-001996
Application 13/877,246
Appeal Br. 21.
Appellants did not identify where Wick explained that two different

cytotoxic agents would be fatal. Wick describes a "new" regiment for the
administration ofTMZ to reduce its toxicity. Wick 69-70. We have not
been directed to disclosure in Wick about additional treatment with HCV-

tk/GCV. Appellants' argument is therefore not substantiated by the
evidence we have been directed to review.
In sum, Rainov expressly teaches that the combination of an HCVtklGCV and TMZ has clinical relevance, and "may reduce toxicity toward
the host as indicated by the DRI (Table 1) and may decrease the impact of
possible acquired drug resistance of the tumor cells." Rainov 667. Thus,
even though there was a lack of synergy in an animal model as described in
Rainov and Glaser, there was still reason to use the combination in humans
with a reasonable expectation of success, and, thus it would have been
obvious to have done so.
In view of the explicit suggestion in Rainov, we affirm the rejections
of claims 2, 3, and 42.
Claim 8 was not argued separately and therefore it is affirmed for the
reason set forth by the Examiner.

Claim 41
Claim 41 is directed to a "kit comprising a viral vector and
temozolomide, said viral vector and said temozolomide present in an amount
effective to treat brain cancer in a human patient." Ulasov describes the
vector ("CRAd-S-pk7") and TMZ, but not the amount of TMZ effective to
treat a brain cancer in a human patient. However, such amount is described

15

46a
Appeal 2018-001996
Application 13/877,246
in Balmaceda. Ans.5. Ulasov teaches "that pretreatment with TMZ
followed by CRAd-S-pk7 (combination therapy) leads to an enhanced
cytotoxic effect in all cell lines tested." Ulasov 1158 ("The additive effect
observed by TMZ and CRad-S-p7 is mediated by autophagy in vitro").
Ulasov further teach:
Consistent with the finding of an additive cytotoxic effect of
TMZ and CRAd-S-pk7 in vitro experiments, this treatment
combination led to an improved survival in mice bearing i.c.
human glioma xenografts.
The therapeutic effects of TMZ and CRAd-S-pk7 on i.c. glioma
xenografts are additive and lead to a significant increase in
survival.
Ulasov 1160.
Ulasov also provides a reason to have used this combination in a
human patient: "The improved therapy exhibited by the TMZ and CRAd-Spk7 cocktail adds to the rationale for testing CRAd-S-pk7 in the clinical
scenario." Ulasov 1163. Determination of the amount of vector to use to
treat the brain cancer would have been routine for one of ordinary skill in the
art, who would have experience in treating cancer with drugs, based on the
teachings in Balmaceda,. Appellants did not provide evidence to the
contrary.
Accordingly, for the foregoing reasons and those of the Examiner, the
rejection of claim 41 as obvious is affirmed.

Claims 4-7
Claim 4 depends from claim 3, and further recites "said administration
of said cytotoxic agent begins no earlier than 2 days after said administration
of said gancyclovir begins." The Examiner found that "differences in
16

47a
Appeal 2018-001996
Application 13/877,246
experimental parameters such as in this case temporal administration of
ganciclovir and TMZ will not support the patentability of subject matter
encompassed by the prior art unless there is evidence indicating such
parameter is critical." Ans. 7-8.
Appellants responded to the rejection by citing evidence from the
Specification that the recited time period of two days is critical. The
Specification teaches:
It was also found that the administration protocol of these

components [GCV and a cytotoxic agent such as TMZ] is key
to the surprising technical effect observed in the invention, i.e.
the synergy. The inventors have found that the upregulation of
the MMR pathway by vector/prodrug gene therapy takes
approximately 2 days, and lasts for a maximum of 7 days after
stopping prodrug therapy. Therefore, in order to see synergy it
is necessary to begin administering the cytotoxic agent no later
than 7 days after finishing prodrug therapy.
Spec. 2:9-15.
Because Appellants provided rebuttal evidence, and the Examiner did
not identify a defect in the evidence, the rejection of claim 4, and claims 5-7
which depend from it, are reversed.

17

48a
Appeal 2018-001996
Application 13/877,246
REJECTIONS 4-8
Appellants argue that "Ulasov combined with Balmaceda fails to
teach the trans gene [and] the vector of claim 1." Reply Br. 11. Appellants
state that the "Examiner tries to rehabilitate this by further combining
Ulasov and Balmaceda with Chiocca (2004), Stupp, Brandes, Yu or Hegi

[2008]." Id. Appellants argue "[n]one of these newly-cited references,
however, teaches transgene nor vector." Id.
This argument is not persuasive because the Examiner relied upon
Ulasov for describing a viral vector with a trans gene. The Examiner cited
the additional publications to meet limitations recited in dependent claims.
Ans. 9, 11, 12, 13, 14.
Appellant further argues that the Examiner has not made Hegi (2008)
of record. Reply Br. 12. This argument is not understood because the
Examiner cited Hegi in the Answer and identified it is as being listed in an
Information Disclosure Statement ("IDS"). Ans. 14. This IDS was filed
Aug. 4, 2015 by Appellants. Appellants thus made Hegi (2008) of record.
The obviousness rejections 4-8 of claims 1, 10-13, 16, 17, and 18 are
affirmed for the reasons set forth by the Examiner

REJECTIONS 9 & 10.
OBVIOUSNESS BASED ON MEDICAL NEWS TODAY
Independent claim 19 is rejected by the Examiner based on Medical
New Today and Immonen. Claim 19 is reproduced below:

18

49a
Appeal 2018-001996
Application 13/877,246
19. A method of treating malignant glioma, said method
comprising the steps of
- Diagnosing in a human patient malignant glioma;
- Identifying in said patient at least one malignant glioma
tumor;
- Resectioning said malignant glioma tumor to remove at least
part of said malignant glioma tumor and expose tumor bed
tissue;
- Administering to said tumor bed tissue an Ad.HSV-tk
adenoviral vector having a gene coding for thymidine kinase,
whereby said Ad.HSV-tk adenoviral vector transfects said
tumor bed tissue and said tumor bed tissue expresses said gene
coding for thymidine kinase;
- Within about 5 to about 19 days after administering said
adenoviral vector to said human patient, further administering
to said human patient ganciclovir;
- Administering to said human patient temozolomide.
The Examiner found that claim 19, and dependent claim 20, are
obvious based on the combination of Medical News Today and Immonen.
Ans. 16-17. Appellants do not dispute the rejection. Reply Br. 13. We
therefore affirm the rejection of these claims.

Claims 21 and 22
Claim 21 depends from claim 20 and further recites
wherein said temozolomide is administered in a plurality of 28day cycles, each cycle comprising administration of a dose of
about 150 mg/m2 per day each day for days I - 5 of said 28-day
cycle, followed by a dose of about 0 mg/m2 per day for days 6 28 of said 28-day cycle.
The Examiner cited Balmaceda to meet the dosage limitation of the claim.
Ans.18.
Appellants contend that Balmaceda does not disclose the claimed
dosage limitation. We do not agree. Balmaceda describes in its introduction
19

50a
Appeal 2018-001996
Application 13/877,246
that the "standard dosage [for Ttv1Z] is 150 to 200 mg/m2 once daily ft.)r 5
consecutive days in a 28-day treatment cycle," which meets the treatment
regime recited in claim 21.
Claim 22 depends from claim 21 and further recites "wherein said
plurality of 28-day cycles is preceded by period of about 42 days wherein
temozolomide is administered at a dosage of about 75 mg/m2 per day." The
Examiner found it would have been obvious to have utilized a lower loading
dose of TMZ to achieve optimal results and modulate drug resistance. Ans.
20. Appellants contend that the dose is not described in Balmaceda, but
failed to address the obviousness of optimizing the dosage based on
Balmaceda. 4 Reply Br. 14.
For the foregoing reasons and those of the Examiner, the obviousness
rejection of claims 21 and 22 is affirmed.

Claim 23
Claim 23, depends from claim 20, and further recites "wherein said
Ad.HSV-tk adenoviral vector and said ganciclovir are each administered in
an amount effective to induce the MMR pathway." MMR is the "mismatch
repair pathway." Spec. 1: 19-25.

Stupp, cited in the rejection of other dependent claims, discloses that the
"approved conventional schedule is a daily dose of 150 to 200 mg per square
meter of body-surface area for 5 days of every 28-day cycle. Daily therapy
at a dose of 75 mg per square meter for up to seven weeks is safe." Stupp
988. Thus, it appears that claims 21 and 22 are directed to known dosages of
TMZ. Hegi (2008) also has a similar treatment plan with TMZ of a daily
dose of75 mg/m2 for 6 to 7 weeks, every 10 weeks. Hegi (2008) 4194,
Table 3; 4196, Table 4.

4

20

51a
Appeal 2018-001996
Application 13/877,246
The Examiner found it obvious to activate MMR pathways based on
teachings in Hegi (2008) and Balmaceda that MGMT (06-methylguanineDNA methyltransferase) activates MMR pathways and that "[g]iven the
central role ofMGMT in resistance to alkylating agents and its unique
properties, MGMT is an ideal potential target for biochemical modulation of
drug resistance." Ans. 19. The Examiner stated that "as evidenced by Hegi
[2008], MGMT activates MMR pathways in patients treated with alkylating
agents such as TMZ (abstract, whole document)." Id.
Appellants contend, again, that Hegi (2008) has not been made of
record by the Examiner (Reply Br. 14), ignoring the fact that Appellants
made the publication of record in an IDS and that the Examiner cited to this
IDS in applying Hegi (2008) to the claims.
Appellants contend that the Examiner erroneously found that Hegi
(2008) discloses MGMT as a potential target and that "the voluminous art of
record shows that the overwhelming majority of 'potential targets' fail.
Assuming Hegi [2008] says that MGMT is an ideal 'potential target,' that
fails to provide us the reasonable expectation of success a prima facie case
requires." Reply Br. 14.
This argument is not persuasive because Hegi (2008) expressly
teaches that MGMT silencing is associated with better outcomes in treating
glioma and thus is an established target of cancer treatment. Specifically,
Hegi (2008) explains that when the methyl group from the guanine (added
by the alkylating agent, such as TMZ) is not repaired by MGMT, the MMR
pathway is activated. 5 Hegi (2008) 4190 (1 st column). Hegi (2008) teaches

The Specification also teaches that "[i]t is known that a functional MMR
pathway is essential to make cells sensitive to TMZ." Spec. 1:21-23.
5

21

52a
Appeal 2018-001996
Application 13/877,246
that "epigenetic silencing" of the MGMT gene by promoter methylation
plays an important role in regulating MGMT expression in gliomas. MGMT
promoter methylation is correlated with improved progression-free and
overall survival in patients treated with alkylating agents. Hegi (2008)
Abstract. Hegi (2008) at 4192 also discloses that "results showed that
MGMT promoter methylation was associated with improved overall survival
in patients treated with RT [radiotherapy] plus temozolomide but not in
patients initially treated with RT alone." Thus, Hegi identified the MGMT
pathway as a target for TMZ, providing a reason to silence it when treating
glioma, and subsequently activate MMR pathways.
For the foregoing reason, the rejection of claim 23 is affirmed.

Summary
The obviousness rejection of claims 19-23 is affirmed. Claims 24-26
were not argued separately and fall with these claims. 37 C.F.R. §
41.37(c)(iv)(1).

REJECTIONS 11 & 12. OBVIOUSNESS BASED ON ULASOV,
BALMACEDA, IMMONEN, RAINOV & STUPP
The Examiner rejected claims 27, 29-32, and 35--40 based on Ulasov,
Balmaceda, Immonen, and Rainov (Rejection 11). Ans.23.
Appellants argue:
Claim 27 requires an immune-competent human patient. In
contrast, Ulasov and Rainov teach the opposite: immuneincompetent mice. Balmaceda, Immonen and Stupp similarly
fail to teach immune competent patients. We cannot assume
that Balmaceda, Immonen or Stupp's patients were immune
competent because the art teaches to screen cancer patients and
22

53a
Appeal 2018-001996
Application 13/877,246
exclude immune-competent patients from certain treatments.
See Yla-Herttuala, Declaration (02 June 2014) (made of record
18 in the instant application on April 2016).
Reply Br. 15.
We have already considered these arguments regarding claim 27 and
the limitation that the patients are immunocompetent and found them to be
unpersuasive. Supra. Appellants also argue that combination of a vector,
GCV, and TMZ is not disclosed. Reply Br. 15-16. As already discussed,
Rainov discloses the combination of both agents. This argument is
duplicative of argument made elsewhere in the Reply Brief and Appellants
provide no objective evidence to support the contentions nor do Appellants
identify a defect in the Examiner's fact-finding or reasoning.
The obviousness rejection of claims 27,29-32, and 35--40 is affirmed
for the reasons set forth by Examiner. Ans. 20-23 (Rejection 11).
Appellants did not separately argue the rejection of claims 27 and 34
(Rejection 12). The obviousness rejection of claims 27 and 34 are affirmed
for the reasons set forth by Examiner. Ans. 23-24.
SUMMARY
Rej ection 1 of claim 41 is reversed.
Rejection 2 of claims 1, 9, 14, 15,27, 31, and 33 is affirmed.
Rejection 2 of claim 28 is reversed.
Rejection 3 of claims 1,2, 3, 8,41, and 42 is affirmed.
Rej ection 3 of claims 4-7 is reversed.
Rej ections 4-8 of claims 1, 10-13, and 16-18 are affirmed.
Rejection 9 of claims 19 and 20 is affirmed.
Rejection 10 of claims 19,20, and 21-26 is affirmed.

23

54a
Appeal 2018-001996
Application 13/877,246
Rejection 11 of27, 29-32, and 35--40 is affirmed.
Rejection 12 of claims 27 and 34 is affirmed.
Therefore, currently claims 4-7 and 28 are not subject to a pending
rejection.

TIME PERIOD
No time period for taking any subsequent action in connection with
this appeal may be extended under 37 C.F.R. § 1. 136(a)(1)(iv).

AFFIRMED-IN-PART

24

61a
Relevant Constitutional Clause, Federal Statutes
and Agency Regulations
U.S. CONSTITUTION 5TH AMENDMENT
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia,
when in actual service in time of War or public
danger; nor shall any person be subject for the same
offence to be twice put in jeopardy of life or limb; nor
shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor
shall private property be taken for public use,
without just compensation.
5 U.S.C. § 706
Scope of Review
To the extent necessary to decision and when
presented, the reviewing court shall decide all
relevant questions of law, interpret constitutional
and statutory provisions, and determine the meaning
or applicability of the terms of an agency action. The
reviewing court shall- (1) compel agency action
unlawfully withheld or unreasonably delayed; and (2)
hold unlawful and set aside agency action, findings,
and conclusions found to be(A) arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law;
(B) contrary to constitutional
privilege, or immunity;

right, power,

62a
(C) in excess of statutory jurisdiction, authority,
or limitations, or short of statutory right;
(D) without observance of procedure required by
law;
(E) unsupported by substantial evidence in a case
subject to sections 556 and 557 of this title or
otherwise reviewed on the record of an agency
hearing provided by statute; or
(F) unwarranted by the facts to the extent that
the facts are subject to trial de novo by the
reviewing court.
In making the foregoing determinations, the court
shall review the whole record or those parts of it
cited by a party, and due account shall be taken of
the rule of prejudicial error.

35 U.S.C. § 141
Appeal to Court of Appeals for the Federal Circuit
(a) Examinations. An applicant who is dissatisfied
with the final decision in an appeal to the Patent
Trial and Appeal Board under section 134(a) may
appeal the Board's decision to the United States
Court of Appeals for the Federal Circuit. By filing
such an appeal, the applicant waives his or her right
to proceed under section 145.
35 U.S.C. § 143
Proceedings on Appeal
With respect to an appeal described in section 142,
the Director shall transmit to the United States
Court of Appeals for the Federal Circuit a certified

63a
list of the documents comprising the record in the
Patent and Trademark Office.
The court may
request that the Director forward the original or
certified copies of such documents during pendency
of the appeal. In an ex parte case, the Director shall
submit to the court in writing the grounds for the
decision of the Patent and Trademark Office,
addressing all of the issues raised in the appeal.
35 U.S.C. § 144
Decision on Appeal
The Court of Appeals for the Federal Circuit shall
review the decision from which an appeal is taken on
the record before the Patent and Trademark Office.
Upon its determination the court shall issue to the
Director its mandate and opinion, which shall be
entered of record in the Patent and Trademark Office
and shall govern the further proceedings in the case.
37 C.F.R. § 41.30
Definitions
In addition to the definitions in § 41.2, the following
definitions apply to proceedings under this subpart
[appeals to the Patent Trial & Appeal Board] unless
otherwise clear from the context:
***
Record means the items listed in the content
listing of the Image File Wrapper of the official
file of the application or reexamination
proceeding on appeal or the official file of the
Office if other than the Image File Wrapper,
excluding amendments, Evidence, and other
documents that were not entered.

64a

37 C.F.R. § 41.33(d)
Affidavits Or Other Evidence After Appeal
(1) An affidavit or other Evidence filed after the date
of filing an appeal pursuant to § 41.31(a)(1) through
(a)(3) and prior to the date of filing a brief pursuant
to § 41.37 may be admitted if the examiner
determines that the affidavit or other Evidence
overcomes all rejections under appeal and that a
showing of good and sufficient reasons why the
affidavit or other Evidence is necessary and was not
earlier presented has been made.
(2) All other affidavits or other Evidence filed after
the date of filing an appeal pursuant to § 41.31(a)(1)
through (a)(3) will not be admitted except as
permitted by §§ 41.39(b)(1), 41.50(a)(2)(i), and
41.50(b)(1).

